?
7

Supreme Court, U.S.
FILED

AUG t 1 2020
L

NO.

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

JING SHU ZHENG,
Petitioner,
v.
CHRISTINA ELLIS and JONATHAN ELLIS, Relators; ex rel.
United States of America,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

JING SHU ZHENG
Pro se,
c/o R. DUANE FRIZELL*
Nevada Bar No. 9807
Frizell Law Firm
400 N. Stephanie St., Suite 265
Henderson, Nevada 89014
Telephone (702) 657-6000
Facsimile (702) 657-0065
DFrizell@FrizellLaw.com
* Application of R. Duane Frizell, Esq.
For attorney admission for Pro Bono Publico
service is forthcoming

QUESTIONS PRESENTED FOR REVIEW
This case involves civil penalties and damages arising under Section 8 housing and the
False Claims Act (“FCA”). Petitioner was the landlord, Respondents the tenants. Petitioner
represented herselfpro se in the District Court. Her native language is Mandarin Chinese, and
she is not very proficient in the English language. Therefore, she relied upon Google translate.
Petitioner did have counsel for her appeal to the Ninth Circuit. At all times, Respondents have
been represented by pro bono counsel.
The District Court expressly found no bad faith on the part of Petitioner. Nevertheless,
the District Court determined that Petitioner’s agent made a fraudulent statement in the Section 8
housing contract it signed. Under the contract, Petitioner received automatic payments from the
government without further demand, request, or further representation. Contrary to the terms of
that contract, and the representations made by Petitioner’s counsel, Respondent was overpaid
$300 in rent each month for 22 months, for a total of $6,600 in overpayments. The District
Court rendered judgment against Petitioner for nearly $177,316, which included civil penalties
and treble damages. The Ninth Circuit affirmed.
In upholding the judgment, the Ninth Circuit applied a “promissory fraud” or “fraud-inthe-inducement” theory in calculating the number of FCA civil penalties. Under this approach, it
determined that each time rent was overpaid, Petitioner was subject to a civil penalty. Thus, it
upheld the District Court’s imposition of 22 civil penalties of $5,500 each. This came to a total
of $121,000 in civil penalties.
With respect to treble damages, the Ninth Circuit upheld the District Court’s
methodology, which was not simply three times the overpayments of $6,600. Rather, the District

ii

Court trebled the total amount paid out by the government. The government paid out a total of
$18,772. Thus, the District Court awarded $56,316 in treble damages.
With respect to the both the civil penalties and the treble damages, the District Court
failed to determine whether they ran afoul of the Due Process Clause of the Fifth Amendment.
The Ninth Circuit did not decide that issue, but it did determine the penalties and damages did
not constitute excessive fines.
Petitioner is now seeking a writ of certiorari from this Court. The questions presented for
review here are as follows:'
1.

Whether the number of FCA civil penalties is based upon the number of

overpayments received by a Section 8 landlord or whether they are based upon the
number of times the landlord presents a fraudulent claim or statement to the government;
2.

Whether FCA treble damages are based upon the total amount paid out by the

government or whether they are based upon the sum of the overpayments alone; and
3.

Whether due process is violated when a court imposes FCA civil penalties and

treble damages that come to nearly 27 times the total amount of overpayments.

ill

LIST OF ALL PARTIES

.)

Petitioner JING SHU ZHENG (“Zheng”) is an individual. She was the Defendant in the
case brought against her in the United States District Court of the District of Nevada. She was
the Appellant before the Ninth Circuit Court of Appeals.
CHRISTINA ELLIS and JONATHAN ELLIS (collectively the “Ellises”) are individuals.
As Plaintiffs in the District Court, they filed suit against Zheng.
The UNITED STATES OF AMERICA declined to intervene. Thereafter, the District
Court allowed the case to proceed with the Ellises as Relators.

CORPORATE DISCLOSURE STATEMENT
All parties are individuals.

LIST OF ALL PROCEEDINGS
On June 21, 2016, Respondents filed this action in the United States District Court for the
District of Nevada, Las Vegas Division, Case No. 2:16-cv-01447-APG-NJK. The District Court
granted summary judgment in favor of the Respondents.
On November 16, 2018, Petitioner appealed to the United States Court of Appeals for the
Ninth Circuit, Case. No. 18-17248. The Ninth Circuit affirmed.
Petitioner now seeks a writ of certiorari from this Court.

iv

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW
LIST OF ALL PARTIES

iv

CORPORATE DISCLOSURE STATEMENT

iv

LIST OF ALL PROCEEDINGS

iv

TABLE OF CONTENTS

v

TABLE OF APPENDICES

vii

TABLE OF CITED AUTHORITIES

via

OPINION BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED...................................................................

3

STATEMENT OF THE CASE

6

Relevant Facts

7

Relevant Procedural History

8

REASONS FOR ALLOWANCE OF THE WRIT
I.

Certiorari Is Warranted Here Because The Ninth
Circuit Is Perpetuating A Patently Flawed
Methodology For The Computation Of The Number Of
FCA Civil Penalties In The Context Of Section 8
Housing As Well As In Other Cases Where Automatic
Payments Are Made By The Government Without
Demand. This Is An Important Question Of Federal
Law That Has Not Been, But Should Be, Settled By
This Court........................................................................

v

11

13

II.

III.

Certiorari Should Also Issue Here Because The
Ninth Circuit’s Methodology For The Computation
Of FCA Treble Damages In The Context Of Section 8
Housing Is Incorrect. This Too Is An Important
Question Of Federal Law That Has Not Been, But
Should Be, Settled By This Court.
Certiorari Should Additionally Be Allowed Here
Because The Courts Of Appeals Are Reaching
Different Conclusions As To Whether FCA Awards
Constitute Punitive Damages Subject To Due Process
Restrictions.

CONCLUSION AND REQUEST FOR RELIEF

V/

\

18

21
23

TABLE OF APPENDICES
District Court Decisions
Appendix A —
Order Granting Motion for Summary Judgment (entered Feb. 26, 2018)
(Doc. 28) [1 AIER 9]

Appx. 001

Appendix B —
Findings of Fact, Conclusions of Law, and Order for Entry of Judgment in
Favor of Plaintiffs/Counterclaim Defendants (entered Oct. 16, 2018)
(Doc. 62) [1 AIER 10-11]

Appx. Oil

Appendix C —
Judgment in a Civil Case (entered Oct. 16, 2018)
(Doc. 63) [1 AIER 12]

Appx. 014

Appendix D —
Order for Entry of Final Judgment in Favor of Plaintiffs and Against
Defendant (entered Oct. 17, 2018)
(Doc. 65) [1 AIER 13]

Appx. 016

Appendix E —
Judgment in a Civil Case (entered Oct. 18, 2018)
(Doc. 66) [1 AIER 14]

Appx. 018

Court ofAppeals’ Decisions
Appendix F —
Memorandum (entered Apr. 3, 2020)
[DktEntry 34-1]

Appx. 020

Appendix G —
Order (entered May 13, 2020)
[DktEntry 36]

Appx. 026

Appendix H—Order (entered May 20, 2020)
[DktEntry 38]

Appx. 028

Vll

TABLE OF CITED AUTHORITIES

Cases
BMW ofN. Am. v. Gore,
517 U.S. 559(1996)...

21-22

Coleman v. Hernandez,
490 F. Supp. 2d. 278 (D. Conn. 2007)

17-19

Harrison v. Westinghouse Savannah River Co., 176 F.3d 776 (4th Cir. 1999)

15

United States ex rel. Baran,
2015 U.S. Dist. LEXIS 125190
(C.D. Cal. Aug. 28, 2015)....

16

United States ex rel. Hendow v. University of Phoenix, 461 F.3d 1166 (9th
Cir. 2006)..................................................................................................

14

United States v. Mackby [hereinafter Mackby II],
339 F.3d 1013 (9th Cir. 2003).............................
United States ex rel. Main v. Oakland City Univ., 426 F.3d 914 (7th Cir.
2005).............................................................................................................

18-19

15

Universal Health Servs. v. United States ex rel. Escobar,
_U.S._, 136 S. Ct. 1989 (2016)...................................

11-12, 16

United States v. Bornstein,
423 U.S. 303 (1976)........

11, 13-15

United States v. McNinch,
356 U.S. 595 (1958)....

11

Vermont Agency ofNatural Res. v. United States ex rel. Stevens, 529 U.S.
765 (2000)................................................................................................

21

Constitutional Provisions
U.S. Const., amend. 5

3,21

viii

Statutes
28 U.S.C. § 1254

2

28 U.S.C. § 1291

10, 22

28 U.S.C. §2101

2

31 U.S.C. § 3729

3,9, 11-14, 18

Resulations
28 C.F.R. § 85.3

9, 13

Rules
Fed. R. App. P. 4

10
17, 20, 22

S.Ct. R. 10
S. Ct. R. 13

2

S. Ct. R. 29
2

ix

OPINION BELOW
The Ninth Circuit affirmed the District Court in all respects, holding as follows: (1) the
number of FCA civil penalties is properly based upon the number of overpayments received
Petitioner; (2) FCA treble damages are correctly based upon the total amount paid out by the
government; and (3) due process is not violated with the imposition of FCA civil penalties and
treble damages that come to nearly 27 times the total amount of overpayments (see Appendix F).

i

1

STATEMENT OF JURISDICTION
Under 28 U.S.C. § 1254(1), this Court has jurisdiction to review “[cjases in the courts of
appeals ... after rendition of judgment or decree.” A panel of the Ninth Circuit rendered its
opinion on April 3, 2020 {see Appendix F). It denied panel rehearing and rehearing en banc on
May 13, 2020 {see Appendix G). On May 20, 2020, the Ninth Circuit granted Petitioner’s
motion to stay the mandate {see Appendix H). This Court may issue a writ of certiorari to the
Ninth Circuit because the present petition is being deposited with the United States Postal
Service within 90 days of the denial of rehearing. See 28 U.S.C. § 2101(c); see also S. Ct. R.
13(1), 29(2).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Const., amend. 5 (Due Process Clause)
“No person shall ... be deprived of life, liberty, or property, without due process of law ....”

31 U.S.C. § 3729 (False Claims Act)
(a) Liability for certain acts.
(1) In general. Subject to paragraph (2), any person who—
(A) knowingly presents, or causes to be presented, a false or fraudulent claim for
payment or approval;
(B) knowingly makes, uses, or causes to be made or used, a false record or statement
material to a false or fraudulent claim;
(C) conspires to commit a violation of subparagraph (A), (B), (D), (E), (F), or (G);
(D) has possession, custody, or control of property or money used, or to be used, by
the Government and knowingly delivers, or causes to be delivered, less than all of
that money or property;
(E) is authorized to make or deliver a document certifying receipt of property used, or
to be used, by the Government and, intending to defraud the Government, makes or
delivers the receipt without completely knowing that the information on the receipt is
true;
(F) knowingly buys, or receives as a pledge of an obligation or debt, public property
from an officer or employee of the Government, or a member of the Armed Forces,
who lawfully may not sell or pledge property; or
(G) knowingly makes, uses, or causes to be made or used, a false record or statement
material to an obligation to pay or transmit money or property to the Government, or
knowingly conceals or knowingly and improperly avoids or decreases an obligation
to pay or transmit money or property to the Government,
is liable to the United States Government for a civil penalty of not less than $5,000 and
not more than $10,000, as adjusted by the Federal Civil Penalties Inflation Adjustment
Act of 1990 (28 U.S.C. 2461 note; Public Law 104-410), plus 3 times the amount of
damages which the Government sustains because of the act of that person.
(2) Reduced damages. If the court finds that—
(A) the person committing the violation of this subsection furnished officials of the
United States responsible for investigating false claims violations with all information
known to such person about the violation within 30 days after the date on which the
defendant first obtained the information;

3

(B) such person fully cooperated with any Government investigation of such
violation; and
(C) at the time such person furnished the United States with the information about the
violation, no criminal prosecution, civil action, or administrative action had
commenced under this title with respect to such violation, and the person did not have
actual knowledge of the existence of an investigation into such violation,
the court may assess not less than 2 times the amount of damages which the
Government sustains because of the act of that person.
(3) Costs of civil actions. A person violating this subsection shall also be liable to the
United States Government for the costs of a civil action brought to recover any such
penalty or damages.
(b) Definitions. For purposes of this section—
(1) the terms “knowing” and “knowingly”—
(A) mean that a person, with respect to information—
(i) has actual knowledge of the information;
(ii) acts in deliberate ignorance of the truth or falsity of the information; or
(iii) acts in reckless disregard of the truth or falsity of the information; and
(B) require no proof of specific intent to defraud;
(2) the term “claim”—
(A) means any request or demand, whether under a contract or otherwise, for
money or property and whether or not the United States has title to the money or
property, that—
(i) is presented to an officer, employee, or agent of the United States; or
(ii) is made to a contractor, grantee, or other recipient, if the money or
property is to be spent or used on the Government’s behalf or to advance a
Government program or interest, and if the United States Government—
(I) provides or has provided any portion of the money or property
requested or demanded; or
(II) will reimburse such contractor, grantee, or other recipient for
any portion of the money or property which is requested or
demanded; and
(B) does not include requests or demands for money or property that the
Government has paid to an individual as compensation for Federal employment or
as an income subsidy with no restrictions on that individual’s use of the money or
property;
(3) the term “obligation” means an established duty, whether or not fixed, arising from an
express or implied contractual, grantor-grantee, or licensor-licensee relationship, from a
fee-based or similar relationship, from statute or regulation, or from the retention of any
overpayment; and

4

(4) the term “material” means having a natural tendency to influence, or be capable of
influencing, the payment or receipt of money or property.
f

(c) Exemption from disclosure. Any information furnished pursuant to subsection (a)(2) shall be
exempt from disclosure under section 552 of title 5.
(d) Exclusion. This section does not apply to claims, records, or statements made under the
Internal Revenue Code of 1986.

5

STATEMENT OF THE CASE
At the center of this case is Petitioner Jing Shu Zheng (“Zheng”), an elderly woman of
somewhat limited means.1 Over the years, Zheng scrimped and saved her hard-earned money to
purchase a nice home in Las Vegas, where she hoped to retire and live out her golden years. To
help cover the home’s mortgage, Zheng rented it out to Petitioners Christina Ellis and Jonathan
Ellis (collectively the “Ellises”).
The Ellises rented Zheng’s retirement home and, after moving out, sued her for violations
of the False Claims Act (“FCA”) related to Section 8 housing. (Doc. 1). Zheng could not afford
an attorney; therefore, in the District Court, she represented herselfpro se. In sharp contrast, the
Ellises had the benefit of Nevada Legal Services, which provided experienced and formidable
pro bono Section 8 attorneys. (Doc. 26 at 1-2 [2 AIER 93-94]; Doc. 50 at 1; Doc. 68 at 5 & n.2;
Tr. 10/16/2018 [Doc. 83] at 29 [2 AIER 145]).2
Zheng is a U.S. citizen; however, she speaks Mandarin Chinese and has limited English
proficiency. (Doc. 26 at 1-2 [2 AIER 93-94]; Tr. 9/18/2018 [Doc. 81] at 8, 12 [2 AIER 116-17];
Tr. 10/16/2018 [Doc. 83] at 22, 29 [2 AIER 138-45]). She used Google Translate for her
documents and made all court appearances with a Mandarin interpreter. (Doc. 26 at 1 [2 AIER
93]; Doc. 53; Doc. 58 at 5; Doc. 61; Doc. 64; Tr. 9/18/2018 [Doc. 81] at 2 [2 AIER 114], 12; Tr.
10/9/2018 [Doc. 82] at 2 [2 AIER 125]; Tr. 10/16/2018 [Doc. 83] at 2 [2 AIER 130]). This only
compounded her pro se difficulties and hardships in the case.

l

In the District Court, Zheng explained: “I can’t afford a lawyer and there is no legal help to
help me, so I am on my own.” (Doc. 26 at 1 [2 AIER 93]).
2 In the Ninth Circuit, Petitioner filed two volumes of the Appellant’s Initial Excerpts of Record
(“AIER”), which are cited throughout this petition. The citations to “Doc.” refer to the docket
entries in the District Court.

6

Relevant Facts.
The District Court found that on March 22, 2013, Zheng (as landlord) and the Ellises (as
tenants) executed a Residential Lease Agreement (the “Lease”) for Zheng’s retirement home,
which is located at 4411 Melrose Abbey Place, Las Vegas, NV 89141 (the “Property”). The
District Court found further that, per the terms of the Lease, the rent was set at $2,300 per
month.3 (Doc. 28 at 1 [1 AIER 1]). The Ellises admit that they agreed to pay this amount and
that they signed the Lease. (Doc. 24-12 [2 AIER 88-92]).
Zheng retained a management company, SJ 5308 Investment Corp (“SJ 5308”), to handle
the rental of her retirement home. (Doc. 1 at 2; Doc. 12 at 2; Doc. 26 at 1 [2 AIER 93]). The
District Court found that Zheng signed a Statement of Property Ownership/Authorization form
(“Authorization Form”) from the Southern Nevada Regional Housing Authority (“SNRHA”) in
which she designated SJ 5308 as her agent. (Doc. 28 at 4 [1 AIER 4]; see also Doc. 27 at 4 [2
AIER 100]; Doc. 27-1 [2 AIER 105-06]).
SJ 5308 put the Property on the market with the rent listed at $2,300 per month. The
Ellises liked the Property and decided to rent it. SJ 5308 prepared the paperwork for the Ellises’
leasing of the Property. All communications between Zheng and the Ellises went through SJ
5308. (Doc. 26 at 1 [2 AIER 93]).
The District Court found that on April 10, 2013, acting on Zheng’s behalf, SJ 5308
entered into a Housing Assistance Payments Contract (“HAP”) of the U.S. Department of

3 The District Court found that there were actually two leases: The first lease, dated May 13,
2013, had a rent set at $2,300 per month; the second, dated April 10, 2013, set the monthly rent
at $2,000. In the District Court, Zheng presented evidence that she never signed the second lease
and that it was a fraud. The District Court concluded that whether the second lease “is a valid
lease is immaterial for the purposes [Plaintiffs’ motion for summary judgment], as Zheng
charged the Ellises [$2,300] as per the [first lease].” (Doc. 28 at 1 n.2 [1 AIER 1]).

7

Housing and Urban Development (“HUD”) with the SNRHA.4 (Doc. 28 at 2 [1 AIER 2]). The
HAP provided that the Ellises would only be charged $2,000 in monthly rent. Of this amount,
the Section 8 program would cover $456 per month, which was subject to change in accordance
with HUD requirements. (2 AIER 39, 42). The Section 8 payments were to be made directly to
Zheng without her having to send an invoice or make any other request. (2 AIER 40-42). If the
Section 8 payments were late, Zheng could, depending on the circumstances, receive a late fee
from the government as well. (2 AIER 43).
The District Court found that, per the terms of the Lease, the Zheng was paid rent in the
amount of $2,300 per month. Under the HAP, that resulted in an overpayment of $300 per
month for 22 months, for a total of $6,600 in overpayments. (Doc. 28 at 7 [1 AIER 7]; see also
Doc 24-12 at 3, 5 [2 AIER 90-92]; Doc. 24-9; Doc. 24-10 [2 AIER 82-84]). Per the terms of the
HAP, the government was entitled to a “recovery of overpayments.” (2 AIER 43).
Relevant Procedural History.
On June 21,2016, the Ellises filed a complaint against Zheng and SJ 5308 in the United
States District Court for the District of Nevada. They stated a single claim: violation of the
FCA. (Doc. 1 at 4-7). Under 28 U.S.C. § 133l.and 31 U.S.C. § 3732(a), the District Court had
jurisdiction. Representing herselfpro se, Zheng filed an answer and counterclaim. Pursuant to
31 U.S.C. § 3730(b)(4)(B), the United States declined to intervene in the action. (Doc. 4). The
District Court then allowed the Ellises to proceed as Relators. (Doc. 7).
On August 14, 2017, the Ellises filed a motion for summary judgment on their FCA
claim. On February 26, 2018, the District Court granted the motion but reserved ruling on

4 In the District Court, Zheng challenged the authenticity and validity of the HAP, explaining
that she had never seen it before and that she certainly did not sign it. (Doc. 26 at 2 [1 AIER
94]).

8

Zheng’s counterclaims (see Appendix A). On September 7, 2018, the Ellises voluntarily
dismissed SJ 5308, which had previously been defaulted. (Doc. 49).
On October 16, 2018, the case came on for a bench trial of Zheng’s counterclaims. (Doc. /
64; Tr. 10/16/2018 [Doc. 83] [2 AIER 129-49]). On that same date, the Court rendered its
findings, conclusions, and order for entry of judgment, ruling against Zheng on her
counterclaims (see Appendix B). Also on that same date, the District Court Clerk entered
judgment on the counterclaims (see Appendix C).
In ruling on the Ellis’s motion for summary judgment, the District Court found that the
Ellises “d[id] not argue that Zheng acted in bad faith[;] nor [was] there any evidence to that
effect” (see Appendix A). Nevertheless, it found that SJ 5308, Zheng’s agent, made a
misrepresentation in the HAP: that the Ellises would only be charged rent of $2,000 per month.
Because her agent made the representation, the District Court concluded that, under the FCA,
Zheng could be held personally liable.
The District Court found that the government’s damages equaled the total amount it paid
out under the life of the HAP: $18,722. With this basis, it calculated FCA treble damages to
come to $56,316. The District Court also concluded that each of the 22 overpayments
constituted an independent FCA violation requiring the imposition of a statutorily-imposed
penalty between $5,500 and $11,000. See 31 U.S.C. § 3729(a)(1)(G); 28 C.F.R. § 85.3(a)(9).
The District Court determined that, because Zheng represented herselfpro se and could not
afford an attorney, the inference arose “that she may not be able to pay the maximum penalties.”
Accordingly, the District Court set a penalty at the minimum of $5,500 for each of the 22
violations, for a total of $121,000 in civil penalties. On October 18, 2018, the District Court
entered a final judgment against Zheng for $56,316 in FCA treble damages and $121,000 as

9

FCA civil penalties, for a total of $177,316 (see Appendix E). That judgment disposed of all
parties’ claims. .
On November 16, 2018, Zheng had an attorney make an appearance on her behalf for the
first time.5 (Doc. 72). On that same date, her attorned filed a notice of appeal to the Ninth
Circuit. (Doc. 73 [2 AIER 150-52]). The notice was timely because it was filed within 30 days
of the District Court’s entry of its final judgment. See Fed. R. App. P. 4(a)(1)(A). Under 28
U.S.C. § 1291, the Ninth Circuit had jurisdiction over the final judgment.
Before the Ninth Circuit, Zheng challenged the District Court’s calculation of damages.
With respect to the treble damages, she argued that the amount should be based upon the total of
$6,600 in overpayments, rather than the entire $18,722 the government paid out on the Ellises’
behalf. In terms of the penalties, she argued that they should have been assessed only once,
based upon the single misrepresentation in the FIAP that rent would only be charged in the
amount of $2,000 per month. This misrepresentation was made in the HAP by SJ 5308, Zheng’s
agent, rather than Zheng herself. In the District Court, Zheng presented evidence that, at all
material times, she was not even aware of the HAP.6 The Ninth Circuit rejected Zheng’s
challenges and affirmed the District Court in all respects.
Under 28 U.S.C. § 1254(1), this Court has jurisdiction to review “[c]ases in the courts of
appeals ... after rendition of judgment or decree.” A panel of the Ninth Circuit rendered its
opinion on April 3, 2020 {see Appendix F). It denied panel rehearing and rehearing en banc on

5 Her attorney before the Ninth Circuit, R. Duane Frizell, will be filing an application for
admission to practice before this Court forthwith to render service pro bono publico.
6 For these reasons, on appeal to the Ninth Circuit, Zheng also challenged the District Court’s
ruling that she could be held personally liable under the FCA.

10

May 13, 2020 (see Appendix G). On May 20, 2020, the Ninth Circuit granted Petitioner’s
motion to stay the mandate (see Appendix H).

REASONS FOR ALLOWANCE OF THE WRIT
The District Court found that the Ellises did “not argue that Zheng acted in bad faith[;]
nor is there any evidence to that effect” (see Appendix A at p. 8). If the Ninth Circuit’s decision
is allowed to stand, this case would likely become the poster child for a grave wrong with
Section 8 housing and the FCA. For alleged overpayments in rent totaling only $6,600, Zheng
has been slapped with a judgment of nearly $180,000. This shocks the conscience.
This Court has explained that “[t]he False Claims Act is not ‘an all-purpose antifraud
statute,’ or a vehicle for punishing garden-variety breaches of contract or regulatory violations.”
Universal Health Servs. v. United States ex rel. Escobar,

U.S. _, _, 136 S. Ct. 1989, 2003

(2016) (citation omitted).
Enacted in 1863, the False Claims Act “was originally aimed principally at
stopping the massive frauds perpetrated by large contractors during the Civil
War.” United States v. Bornstein, 423 U.S. 303, 309 (1976). “[A] series of
sensational congressional investigations” prompted hearings where witnesses
“painted a sordid picture of how the United States had been billed for nonexistent
or worthless goods, charged exorbitant prices for goods delivered, and generally
robbed in purchasing the necessities of war.” United States v. McNinch, 356 U. S.
595, 599 (1958). Congress responded by imposing civil and criminal liability for
10 types of fraud on the Government, subjecting violators to double damages,
forfeiture, and up to five years’ imprisonment. Act of Mar. 2, 1863, ch. 67, 12
Stat. 696.
Since then, Congress has repeatedly amended the Act, but its focus
remains on those who present or directly induce the submission of false or
fraudulent claims. See 31 U. S. C. §3729(a) (imposing civil liability on “any
person who ... knowingly presents, or causes to be presented, a false or fraudulent
claim for payment or approval”). A “claim” now includes direct requests to the
Government for payment as well as reimbursement requests made to the
recipients of federal funds under federal benefits programs. See § 3729(b)(2)(A).
The Act’s scienter requirement defines “knowing” and “knowingly” to mean that
a person has “actual knowledge of the information,” “acts in deliberate ignorance
of the truth or falsity of the information,” or “acts in reckless disregard of the truth

11

or falsity of the information.” § 3729(b)(1)(A). And the Act defines “material” to
mean “having a natural tendency to influence, or be capable of influencing, the
payment or receipt of money or property.” § 3729(b)(4).
Id. at 1996.
Here, certiorari is warranted on three grounds: First, because the Ninth Circuit is
perpetuating a patently flawed methodology for the computation of the number of FCA civil
penalties in the context of Section 8 housing as well as in other cases where automatic payments
are made by the government without demand. This is an important question of federal law that
has not been, but should be, settled by this Court. Second, certiorari should also issue here
because the Ninth Circuit’s methodology for the computation of FCA treble damages in the
context of section 8 housing is incorrect. This too is an important question of federal law that
has not been, but should be, settled by this Court. Finally, certiorari should additionally be
allowed here because the courts of appeals are reaching different conclusions as to whether FCA
awards constitute punitive damages subject to due process restrictions.

12

I.

Certiorari Is Warranted Here Because The Ninth Circuit Is
Perpetuating A Patently Flawed Methodology For The
Computation Of The Number Of FCA Civil Penalties In The Context
Of Section 8 Housing As Well As In Other Cases Where Automatic
Payments Are Made By The Government Without Demand. This Is An
Important Question Of Federal Law That Has Not Been, But Should
Be, Settled By This Court.

“[A]ny person who ... knowingly [violates the FCA] ... is liable to the United States
Government for a [minimum-to-maximum] civil penalty ....” 31 U.S.C. § 3729(a)(1)(G). The
current minimum penalty is $5,500; the maximum is $11,000. See 28 C.F.R. § 85.3(a)(9). Years
ago, in Bornstein, this Court set forth a methodology for calculating the number of civil
penalties. That case involved false claims related to radio kits sold to the government per the
terms of a single contract. See Bornstein, 423 U.S. 303, 307-08 (1976). The government sued a
subcontractor that fraudulently labeled electron tubes used in a government contractor’s
production of the kits. See id. at 307. The subcontractor sent 21 boxes of those tubes to the
contractor in three separately invoiced shipments. See id. The contractor, in turn, used 397 of
those tubes to make radio kits, which it shipped to the government in connection with 35
different invoices. See id.
In Bornstein, the district court determined that the subcontractor was liable for 35
separate penalties because it caused the contractor to send 35 invoices the government for radio
kits that contained tubes which were fraudulently labeled as to their quality specifications. See
id. at 308. The court of appeals reversed, holding that because there was only one contract, the
subcontractor could only be liable for one penalty. See id. This Court rejected both
methodologies for determining the number of fraudulent “claims” for the purposes of civil
penalties. See id. at 311-13. Instead, this Court concluded that under the FCA, “the focus in
each case [must] be upon the specific conduct of the person from whom the Government seeks to

13

collect the statutory forfeitures [penalties].” (Emphasis supplied). Along these lines, the
Bornstein Court announced a per-act approach, under which it held that if a defendant “had
committed one act which caused ... a false claim, it would clearly be liable for a single
[penalty].” Id. at 311. Applying this metric, this Court determined that the subcontractor was
liable for three separate penalties, one for each of the invoices it sent to the contractor. See id. at
31.

Here, the District Court found that Zheng’s agent made one false statement when it
“certified ... in the [Housing Assistance Payments Contract] Contract [(“HAP”)] that... except
for the rent to owner payment, she did not receive and would not receive any other payments or
contributions for rental of the Property; and ... the terms of the lease were in accordance with all
provisions of the HAP Contract.” (1 AIER 5). The District Court found further that the Ellises
were charged an extra $300 per month for 22 months (a total $6,600 in overpayments). (1 AIER
7). Nevertheless, it slapped Zheng with a conscience-shocking civil penalty of $121,000 ($5,500
for each month’s overpayment). (1 AIER 14). The Ninth Circuit affirmed, concluding:
.... [T]he [District] court correctly held, in calculating the penalties owed
under the FCA, that each check Zheng received from SNRHA was its own “claim
against the government fisc” and thus its own separate FCA violation. United
States ex rel. Hendow v. Univ. of Phx., 461 F.3d 1166, 1177 (9th Cir. 2006). The
district court appropriately imposed the lowest penalty per violation authorized by
the regulations—$5,500—for a total of $121,000 in penalties based on the 22
violations Zheng committed. See 31 U.S.C. § 3729(a)(1); 28 C.F.R. § 85.3(a)(9).
(See Appendix F at pp.3-4 (emphasis added)).
By focusing on the payments “received,” the Ninth Circuit’s methodology conflicts with
that set forth in United States v. Bornstein, 423 U.S. 303, 313 (1976). Under Bornstein, Zheng
should only be subject to one civil penalty for the single false certification that her agent made in
the HAP. Also, unlike the subcontractor in Bornstein who sent three fraudulent invoices, Zheng

14

made no demand for payment. Rather, the Section 8 payments were sent directly to Zheng
without her sending an invoice or making any other request. (2 AIER 40-43). If the Section 8
payments were late, Zheng could even, depending on the circumstances, receive a late fee from
the government as well. (2 AIER 43).
In ruling that Zheng was subject to 22 civil penalties, the Ninth Circuit appears to have
relied upon the “promissory fraud” or “fraud-in-the-inducement” described in Hendow, a postBornstein case. Hendow explained:
Another approach to finding False Claims Act liability in the absence of
an explicitly false claim is the “promissory fraud” or “fraud-in-the-inducement”
theory. This theory, rather than specifically requiring a false statement of
compliance with government regulations, is somewhat broader. It holds that
liability will attach to each claim submitted to the government under a contract,
when the contractor extension of government benefit was originally obtained
through false statements or fraudulent conduct.
Hendow, 461 F.3d at 1773 (citing United States ex rel. Marcus v. Hess, 317 U.S. 537, 542
(1943); United States ex rel. Main v. Oakland City Univ., 426 F.3d 914 (7th Cir. 2005); Harrison
v. Westinghouse Savannah River Co., 176 F.3d 776, 784 (4th Cir. 1999)).
In the context of Section 8 housing, the problem with the promissory fraud theory is that
the landlord does not make “claims” for payment under a HAP. Rather, the government simply
sends its portion of the monthly rent to the landlord without the landlord making any demand for
payment. Under Bornstein, a landlord cannot be subject to a civil penalty for each automatic
payment.7 Nevertheless, that is exactly what the Ninth Circuit held in this case.

7 In their answering brief before the Ninth Circuit, Respondents cited other cases that are also
distinguishable on this ground. See, e.g., United States ex rel. Drakeford v. Tuomey, 792 F.3d
364, 384 (4th Cir. 2015) (affirming FCA civil penalty against hospital for $5,500 multiplied by
21,730 false claims relating to procedures on numerous patients); Mackby I, 261 F.3d at 824
(allowing $5,000 FCA civil penalty multiplied by 111 claims where each penalty was imposed
for each patient for whom defendant made Medicare claim); United States v. Krizek, 111 F.3d
934, 936 (D.C. Cir. 1997) (reversing judgment totaling $168,105 relating to unnecessary care of

15

In Escobar, this Court specifically explained that FCA liability attaches to “those who
present or directly induce the submission of false or fraudulent claims.”* Escobar, 136 S. Ct. at
1996 (emphasis added).

Under Bornstein, each such claim must be an affirmative act of fraud

on the part of the defendant. This Court should provide guidance to lower courts as to the
calculation of “claims” and the number of FCA penalties in Section 8 cases as well as in other
cases where automatic payments are made by the government without demand.
Here, in applying the promissory fraud theory described in Hendow, the Ninth Circuit
followed the lead of district courts in that circuit that have held landlords to be liable for each
and every overpayment received under a HAP. See, e.g., Cummings v. Hale, 2017 U.S. Dist.
LEXIS 142481, *1 (N.D. Cal. May 17, 2017); United States ex rel. Holmes v. Win Win Real
Estate, Inc., 2016 U.S. Dist. LEXIS 26276, *5 (D. Nev. Mar. 1, 2016); United States ex rel.
Baran, 2015 U.S. Dist. LEXIS 125190, *23 (C.D. Cal. Aug. 28, 2015). These cases have been
decided both before and after Escobar.
Other courts in other circuits have rejected this approach. For example, in United States
ex rel. Price v. Peters, 66 F. Supp. 3d 1141, 1151 (C.D. Ill. 2013), the court held:

numerous patients and false upcoding by a psychiatrist when the government sought FCA
penalty of $10,000 for each of 8,002 separate codes used to identify discrete services provided to
different patients for Medicare/Medicaid reimbursement); United States v. Woodbury, 359 F.2d
370, 378 (9th Cir. 1966) (upholding civil penalty of $2,000 multiplied by 10 false claims made
by contractors relating to the construction of separate, individual homes). One case cited by the
Ellises only one civil penalty imposed for each of four separate contracts. See United States ex
rel. Longhi v. Lithium Power Techs., Inc., 530 F. Supp. 2d 888, 901 (S.D. Tex. 2008) (rejecting
the argument that a penalty should be assessed for each of 54 vouchers submitted under the four
contracts).
8

In Escobar, this Court left open the question “whether all claims for payment implicitly
represent that the billing party is legally entitled to payment.” Escobar, 136 S. Ct. at 2000-01.
Because Zheng sent no claims for payment to the government, the Court need not reach this
question here.

16

... Defendant received excess rent payments from Relator in nine out of
the twelve months that Defendant also received the reasonable rent amount from
Relator and the Springfield Housing Authority's Voucher Program. Relator argues
that this constitutes nine separate violations of the False Claims Act and should
result in nine separate $5,500 penalties being assessed against Defendant.
However, Defendant engaged in a single act of promising the Springfield
Housing Authority that she would not charge more than $370 per month. This act
serves as the basis for Defendant's liability in this case. Accordingly, Defendant is
responsible for this single, fraudulent act and must pay a $5,500 penalty for her
conduct.
Id. at 1151; see also Coleman v. Hernandez, 490 F. Supp. 2d. 278, 280-81 (D. Conn. 2007)
(citing Bornstein and imposing civil penalties on a Section 8 landlord six times because the
landlord made six separate “false statements,” each demanding an additional sum for “water
usage” and threatening to evict the tenant if that amount were not paid).
Certiorari is warranted here because the Ninth Circuit is perpetuating a patently flawed
methodology for the computation of the number of FCA civil penalties in the context of Section
8 housing as well as in other cases where automatic payments are made by the government
without demand. This is “an important question of federal law that has not been, but should be,
settled by this Court.” S. Ct. R. 10(c).

17

II.

Certiorari Should Also Issue Here Because The Ninth Circuit’s
Methodology For The Computation Of FCA Treble Damages In The
Context Of Section 8 Housing Is Incorrect. This Too Is An Important
Question Of Federal Law That Has Not Been, But Should Be, Settled
By This Court.

In addition to being subject to a civil penalty, “any person who .. . knowingly [violates
the FCA] ... is liable to the United States Government for ... 3 times the amount of damages
which the Government sustains because of the act of that person.” 31 U.S.C. § 3729(a)(1)(G).
Here, the District Court found that that the Ellises were only overpaid a total of $6,600.
Per the terms of the HAP, the government was entitled to a “recovery of overpayments.”
(2 AIER 43). Nevertheless, the District Court took it a step further. Specifically, it held that the
government’s damages equaled the total amount it paid out: $18,722. Trebled, the damages
came to $56,316. The Ninth Circuit affirmed, concluding:
... [T]he [district] court properly calculated the amount owed in damages.
Because the FCA is concerned with fraud on the government, damages are
determined not by how much Zheng overcharged the Ellises, but rather by how
much Zheng overcharged the government—that is, the amounts she received from
the government without lawful entitlement. The HAP stated that Zheng would not
be entitled to any funds from the government if, as occurred here, she failed to
comply with the terms of the agreement. Accordingly, the damages owed are the
entire amount Zheng received from the government. See United States v. Mackby
[hereinafter Mackby II], 339 F.3d 1013, 1018-19 (9th Cir. 2003).
(Appendix F 2, at p.4).
In Mackby II, the Ninth Circuit announced the general rule: “Ordinarily the measure of
the government’s damages [under the FCA] would be the amount that it paid out by reason of the
false statements over and above what it would have paid if the claims had been truthful.’”
Mackby II, 339 F.3d at 1014, 1018. The Mackby II Court noted an exception to this general rule,
when the defendant is not “qualified” for the program and therefore “entitled to nothing.” Id. at
1019.

18

In the case at bar, Ninth Circuit should have applied the general rule rather than the
limited exception. In that Mackby II, false Medicare claims were at issue. See Mackby II, 339
F.3d at 1014. The false claimant was “a layperson and did not provide ... medical services.” Id.
at 1015. In order to access Medicare funds, the false claimant posed as a healthcare professional
and used a separate healthcare provider’s Medicare personal identification number (PIN). See id.
at 1018-19. The Ninth Circuit found that “[t]he falsity here was not [the claimant’s]
representation that patients had received physical therapy, but the use of [another’s] PIN to
obtain payments to which he was not entitled.” Id. The Mackby II court concluded that had the
claimant “been truthful, the government would have known that he was entitled to nothing
because he was neither a doctor nor a physical therapist in private practice.” Id. He simply did
not qualify for any payment whatsoever.
Unlike the Mackby II claimant, Zheng did qualify as a provider under the Section 8
program. No one disputes the facts that Zheng owned the Property, that she was a landlord, and
that the pertinent state agency qualified her as a landlord entitled to receive Section 8 subsidy
payments. Thus, the general rule is at play, and the exception is completely inapplicable. Under
the Ninth Circuit’s interpretation, the exception would swallow the rule: Every time any false
claim were made, the claimant would be deemed unqualified to receive any funding at all and
subject to disgorgement of 100% of all moneys paid (which then would be trebled as damages).
This result is preposterous.
The proper metric for the damages calculation would be the $300 overpaid 22 times, for a
total of $6,600. (Doc. 28 at 7 [1 AIER 7]). Trebled, the damages come to $19,800. The District
Court erred in calculating trebled damages to be $56,316. Other courts applying Mackby II in
the Section 8 context have used the same methodology. See, e.g., Coleman v. Hernandez,

19

Coleman v. Hernandez, 490 F. Supp. 2d. 278, 281 (D. Conn. 2007) (following Mackby //and
holding that, under the general rule, “[b]y reason of [the] false statements, the government paid
out $60 more per month [in Section 8 rent subsidy] than it would have paid if [the] claims had
been truthful.... The government therefore sustained damages of $360, which, when trebled,
totals $1,080.”)
Certiorari should issue here because the Ninth Circuit’s methodology for the computation
of FCA treble damages in the context of Section 8 housing is flawed. This too is “an important
question of federal law that has not been, but should be, settled by this Court.” S. Ct. R. 10(c).

20

III.

Certiorari Should Additionally Be Allowed Here Because The
Courts Of Appeals Are Reaching Different Conclusions As To
Whether FCA Awards Constitute Punitive Damages Subject To Due
Process Restrictions.

The Ninth Circuit altogether failed to address Zheng’s argument that the District Court’s
damages award violated due process.9 (OB 45-47). As explained below, in so doing, it has
conflicted with decisions of the United States Supreme Court.
The Due Process Clause of the Fifth Amendment provides: “No person ... shall be ...
deprived of life, liberty, or property, without due process of law.” U.S. Const., amend. 5. The
Supreme Court has held that the similar Due Process Clause of the Fourteenth Amendment
“prohibits a State from imposing a ‘grossly excessive’ punishment [including punitive damages]
on a tortfeasor.” BMW ofN. Am. v. Gore, 517 U.S. 559, 562 (1996). “[W]hen an award [of
punitive damages] can fairly be categorized as ‘grossly excessive’ in relation to [legitimate State]
interests ... it enterfs] the zone of arbitrariness that violates [due process].” Id. at 569.
There is no question that the FCA’s damages are punitive in nature, for this Court has
held that they are:
[T]he current version of the FCA imposes damages that are essentially
punitive in nature . ... by ... generally imposing] treble damages and a civil
penalty .... “The very idea of treble damages reveals an intent to punish past,
and to deter future, unlawful conduct, not to ameliorate the liability of
wrongdoers.”
Vermont Agency ofNatural Res. v. United States ex rel. Stevens, 529 U.S. 765, 784-786 (2000)
(emphasis added); accordStev Texas Indus., Inc. v. Radcliff Materials, Inc., 451 U.S. 630, 639

9 The Ninth Circuit did, however, consider Appellant’s excessive fines argument, holding, “[t]he
penalties imposed by the district court are substantial, but they do not violate the Excessive Fines
Clause of the Eighth Amendment” (see Appendix F 3, at pp.4).

21

(2000) (“[The] very idea of treble damages reveals an intent to punish past, and to deter future,
unlawful conduct.”).
This Court has noted: “[F]ew awards exceeding a single-digit ratio between punitive and
compensatory damages, to a significant degree, will satisfy due process.” State Farm Mut. Auto.
Ins. Co. v. Campbell, 538 U.S. 408, 425 (2003). In at least two cases, this Court has held that an
award in excess of four times compensatory damages may violate due process. See id. (citing
BMW ofN. Am. v. Gore, 517 U.S. 559, 562 (1996); Pac. Mut. Life Ins. Co. v. Haslip, 499 U.S. 1
23 (1991)). Here, compensatory damages amounted to $6,600, and the total judgment came to
$177,316 (1 AIER 9). Subtracting out the actual damages, the punitive portion of the award
comes to $170,716—nearly 26 times the compensatory damages. Due process forbids such an
exorbitant penalty.
Certiorari should be allowed here because the courts of appeals are reaching different
conclusions as to whether FCA awards constitute punitive damages subject to due process
restrictions. See, e.g., United States ex rel. Drakeford v. Tuomey, 792 F.3d 364, 387-88 (4th Cir.
2015) (“The ‘FCA imposes damages that are essentially punitive in nature.’ ... [and] the civil
penalty is completely punitive.”). The Court should settle this matter. See S. Ct. R. 10(a).

22

CONCLUSION AND REQUEST FOR RELIEF
Here, certiorari is warranted on three grounds: First, because the Ninth Circuit is
perpetuating a patently flawed methodology for the computation of the number of FCA civil
penalties in the context of Section 8 housing as well as in other cases where automatic payments
are made by the government without demand. This is an important question of federal law that
has not been, but should be, settled by this Court. Second, certiorari should also issue here
because the Ninth Circuit’s methodology for the computation of FCA treble damages in the
context of section 8 housing is incorrect. This too is an important question of federal law that
has not been, but should be, settled by this Court. Finally, certiorari should additionally be
allowed here because the courts of appeals are reaching different conclusions as to whether FCA
awards constitute punitive damages subject to due process restrictions.
WHEREFORE, Petitioner JING SHU ZHENG hereby requests the Court as follows:
1.

to issue a writ of certiorari to the Ninth Circuit Court of Appeals to decide
important issues of law; and

2.

to grant Petitioner all such other and further relief to which she may be entitled at
law or in equity.

DATED: August 11, 2020.
Respectfully submitted,

A/ Tivx&Shu/ZkeYvfy
JING SHU ZHENG
Pro se*
*Application of R. Duane Frizell, Esq. for
attorney admission for Pro Bono Publico service
is forthcoming

23

V

